                                     U.S. SMALL BUSINESS ADMINISTRATION
                                         OFFICE OF INSPECTOR GENERAL
                                           WASHINGTON, D.C. 20416



                                                                       TRANSMITTAL MEMORANDUM
                                                                                  Report No. 13-05

DATE:             November 15, 2012

TO:               Jonathan I. Carver
                  Chief Financial Officer

FROM:             John K. Needham
                  Assistant Inspector General for Auditing

SUBJECT:          Independent Auditors’ Report on the SBA’s FY 2012 Special-Purpose Financial
                  Statements

The attached report presents the results of the audit of the Small Business Administration’s (SBA)
reclassified balance sheet as of September 2012 and 2011, and the reclassified statements of net
costs and changes in net position and Federal trading partner note for the year then ended
(hereinafter referred to as the special-purpose financial statements). An independent public
accounting firm, KPMG LLP (KPMG), performed the audit under a contract with the Office of
Inspector General and in accordance with Office of Management and Budget (OMB) Circular No.
A-136, Financial Reporting Requirements and the Treasury Financial Manual, Part 2, Chapter 4700
(TFM 2-4700).

The independent auditor reported that the statements, including the Federal trading partner
note, present fairly in all material respects, the financial position of the SBA as of September 30,
2012 and 2011. Also, the results of operations and the changes in net position for the period
then ended are in accordance with U.S. generally accepted accounting principles, and the
presentation is in conformance with the requirements of TFM 2-4700. As requested, the
following documents are also attached:

           (1) GF003F Closing Package Financial Statement Report;
           (2) GF003G Closing Package Line Reclassification Summary Report;
           (3) GF004F Federal Trading Partner Summary Note Report;
           (4) GF006 FR Notes Report;
           (5) GF007 Other FR Data Report;
           (6) Management Representation Letter on the Closing Package, including the Summary of
               Uncorrected Misstatement; and
           (7) Management Representation Letter on the audited financial statements, including the
               Summary of Uncorrected Misstatement.

We reviewed KPMG’s report and related documentation, and made necessary inquiries of their
representatives. Our review was not intended to enable us to express, and we do not express, an
opinion on SBA’s reclassified financial statements or on conclusions about internal control and the
SBA’s compliance with laws and regulations. However, our review disclosed no instances where
KPMG did not comply, in all materials respects, with Generally Accepted Government Auditing
Standards. We appreciate the cooperation and assistance of SBA and KPMG representatives.
Should you or your staff have any questions, please contact me at (202) 205-7390 or Jeffrey R.
Brindle, Director, Information Technology and Financial Management Group at (202) 205-7490.

Attachment




                                              2
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                Independent Auditors’ Report


Inspector General,
U.S. Small Business Administration:

We have audited the accompanying Closing Package Financial Statement Report – Balance
Sheets of the U.S. Small Business Administration (SBA) as of September 30, 2012 and 2011;
the related Closing Package Financial Statement Reports – Statement of Net Cost and Statement
of Changes in Net Position, and the accompanying Financial Report (FR) Notes Reports (except
for the information in the FR Notes Reports entitled “Threshold”) for the years then ended; the
accompanying Additional Note No. 31; the accompanying Trading Partner Summary Note
Report – Balance Sheet as of September 30, 2012 and 2011; and the related Trading Partner
Summary Note Reports – Statement of Net Cost and Statement of Changes in Net Position for
the years then ended (hereinafter collectively referred to as the special-purpose financial
statements). These special-purpose financial statements are the responsibility of the SBA’s
management. Our responsibility is to express an opinion on these special-purpose financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
audits to obtain reasonable assurance about whether the special-purpose financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the SBA’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the special-
purpose financial statements and assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s
Treasury Financial Manual (TFM), as described in Additional Note No. 31, solely for the
purpose of providing financial information to the U.S. Department of the Treasury and the U.S.
Government Accountability Office (GAO) to use in preparing and auditing the Financial Report
of the U.S. Government, and are not intended to be a complete presentation of the consolidated
balance sheets of the SBA as of September 30, 2012 and 2011, and the related consolidated




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Small Business Administration
November 15, 2012
Page 2 of 4



statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “general-purpose financial statements”) for the years then ended.



In accordance with TFM Chapter 4700, the SBA prepared FR Notes Report Nos. 1 through 30,
except for FR Notes Report Nos. 10A, 16, 20, 21, 23, 24, and 30, which were not applicable to
the SBA. The SBA included Additional Note No. 31, to disclose other data not contained in the
special-purpose financial statements, but which is necessary to make the special-purpose
financial statements more informative.

In our opinion, the special-purpose financial statements referred to above present fairly, in all
material respects, the financial position of the SBA as of September 30, 2012 and 2011, and its
net costs and changes in net position for the years then ended in conformity with U.S. generally
accepted accounting principles and the presentation pursuant to the requirements of TFM
Chapter 4700, as described in Additional Note No. 31.

The SBA also prepared Other Data Report Nos. 1 through 16, except for Other Data Report Nos.
2 through 7 and 10 through 13, which were not applicable to the SBA. U.S. generally accepted
accounting principles require certain information be presented to supplement the basic general-
purpose financial statements. Such information, although not a part of the basic general-purpose
financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic general-purpose
financial statements in an appropriate operational, economic, or historical context. This
information is included in the Other Data Report Nos. 1, 8, 9, and 14 (except for the information
entitled “Threshold” in Other Data Report Nos. 8, which is discussed below) to supplement the
basic special-purpose financial statements in accordance with TFM Chapter 4700. We have
applied certain limited procedures to the required supplementary information in accordance with
auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the
information for consistency with management’s responses to our inquiries, the basic special-
purpose financial statements, and other knowledge we obtained during our audits of the basic
special-purpose financial statements. We do not express an opinion or provide any assurance on
the information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic special-purpose
financial statements as a whole. The information included in the Other Data Report No.16 is
presented for purposes of additional analysis in accordance with TFM Chapter 4700 and is not a
required part of the basic special-purpose financial statements. Such information is the
responsibility of management and was derived from and relates directly to the underlying
accounting and other records used to prepare the basic special-purpose financial statements. The
Other Data Report No. 16 has been subjected to the auditing procedures applied in the audits of
the basic special-purpose financial statements and certain additional procedures, including




                                               2
U.S. Small Business Administration
November 15, 2012
Page 3 of 4



comparing and reconciling such information directly to the underlying accounting and other
records used to prepare the basic special-purpose financial statements or to the basic special-
purpose financial statements themselves, and other additional procedures in accordance with
auditing standards generally accepted in the United States of America. In our opinion, the
information included in the Other Data Report No. 16 is fairly stated in all material respects in
relation to the basic special-purpose financial statements as a whole.

The information in Other Data Report No. 15, the information entitled “Threshold” in Other
Data Report No. 8; the information in the sections entitled “Threshold” in FR Notes Report Nos.
2 through 4B, 6, 9,15, and 19; the information in the Closing Package Line Reclassification
Summary Report – Balance Sheet; and the information in the Closing Package Line
Reclassification Summary Reports – Statement of Net Cost and Statement of Changes in Net
Position; are presented for purposes of additional analysis in accordance with TFM Chapter
4700 and are not a required part of the basic special-purpose financial statements. Such
information has not been subjected to the auditing procedures applied in the audits of the basic
special-purpose financial statements, and accordingly, we do not express an opinion or provide
any assurance on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting
System to input certain data as described in Additional Note No. 31. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also
issued a combined auditors’ report dated November 14, 2012 which presents our opinion on the
SBA’s general-purpose financial statements; our consideration of the SBA’s internal control
over financial reporting; and the results of our tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements and other matters that are required to be
reported under Government Auditing Standards. That report is an integral part of the audits of
the general-purpose financial statements, performed in accordance with Government Auditing
Standards and OMB Bulletin No. 07-04, and should be read in conjunction with this report in
considering the results of our audits of the special-purpose financial statements. Our audit of the
general-purpose financial statements of the SBA as of and for the year ended September 30,
2012, disclosed the following significant deficiency, and compliance, and other matters:

    •   Significant Deficiency: Improvement Needed in Information Technology (IT) Security
        Controls

    •   Compliance Matter: Noncompliance with the Debt Collection Improvement Act of 1996

    •   Other Matter: Potential Federal Acquisition Regulation Documentation Retention
        Violation

Management is responsible for establishing and maintaining effective internal control. In
planning and performing our audit of the fiscal year 2012 special-purpose financial statements,




                                                3
U.S. Small Business Administration
November 15, 2012
Page 4 of 4



we also considered the SBA’s internal control over financial reporting by obtaining an
understanding of the SBA’s internal control and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the special-
purpose financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the SBA’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the SBA’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting for the special-purpose financial
statements was for the limited purpose described above and was not designed to identify all
deficiencies in internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses. In our fiscal year 2012 audit, we did not identify any
deficiencies in internal control over financial reporting for the special-purpose financial
statements that we consider to be material weaknesses, as defined above.

Management is responsible for complying with laws, regulations (including TFM Chapter
4700), contracts and grant agreements applicable to the SBA. As part of obtaining reasonable
assurance about whether the SBA’s fiscal year 2012 special-purpose financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions or on compliance with TFM Chapter 4700
requirements was not an objective of our fiscal year 2012 audit of the special-purpose financial
statements and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04.
                            ______________________________

This report is intended solely for the information and use of the SBA’s management, the SBA’s
Office of Inspector General, U.S. Department of Treasury, OMB, and GAO, in connection with
the preparation and audit of the Financial Report of the U.S. Government, and is not intended to
be and should not be used by anyone other than these specified parties.



November 15, 2012




                                                 4
